No. _______________
IN THE
SUPREME COURT OF THE UNITED STATES
TONY LAM,
v.

Petitioner,

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit
CERTIFICATE OF SERVICE
NOW COMES Assistant Federal Public Defender Samantha J. Kuhn,
court-appointed counsel for Petitioner Tony Lam, and certifies as follows:
1.

The Federal Public Defender appointed to represent Petitioner Tony

Lam under the Criminal Justice Act, 18 U.S.C. § 3006A, has assigned Mr. Lam’s case
to me.
2.

On this 31st day of July, 2020, electronic versions of the foregoing

Motion for Leave to Proceed in Forma Pauperis and Petition for Writ of Certiorari
were transmitted to the following:
The Honorable Noel Francisco, Solicitor General of the United States
(or current Acting Solicitor General of the United States)
SupremeCtBriefs@usdoj.gov
Counsel for the United States of America

3.

The Office of the Solicitor General advised undersigned counsel via

email that it agrees to electronic service at the e-mail address identified above, in
light of this Court’s order dated April 15, 2020, related to the COVID-19 pandemic.
Accordingly, no paper copies have been mailed to the Solicitor General.
4.

All parties required to be served have been served.
Respectfully submitted this 31st day of July, 2020.
/s/ Samantha Kuhn
SAMANTHA J. KUHN
Assistant Federal Public Defender
Counsel of Record
Office of the Federal Public Defender
500 Poydras Street, Suite 318
Hale Boggs Federal Building
New Orleans, Louisiana 70130
(504) 589-7930
samantha_kuhn@fd.org

2

